BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief for the States of Alaska, Alabama,
Arizona, Arkansas, Idaho, Indiana, Louisiana,
Montana, South Carolina, South Dakota, Texas, Utah,
and West Virginia as Amici Curiae in Support of
Petitioners in 20-1120, Melissa Belgau, et al. v. Jay
Ins lee, in his official capacity as Governor of the State
of Washington, et al., was sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 18th day of March 2021:
James Gideon Abernathy
c/o Freedom Foundation
PO Box 552
Olympia, WA 98507
(360) 956-3482
J amesGAbernathy@gmail.com
Counsel for Petitioners
Scott A. Kronland
Altshuler Berzon, LLP
177 Post Street
Suite 300
San Francisco, CA 94108
(415) 421-7151
skronland@altshulerberzon.com
Counsel for Washington Federation of State Employees,
AFSCME Council 28

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

I

Franklin Square
I 1300 I Street, NW, Suite 400E
Washington, DC 20005

Alicia Orlena Young
Washington Office of the Attorney General
1125 Washington Street SE
PO Box 40100
Olympia, WA 98504-0100
(360) 586-2697
alicia.young@atg.wa.gov
Counsel for Jay Insee, et al. (does not include WFSE)
Trey Taylor
Attorney General of Alaska
J. Michael Connolly
Counsel of Record
Steven C. Begakis
Consovoy McCarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
mike@consovoymccarthy.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 18, 2021.

{;(~~

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ /{.Au?i Ier' 1 cJ6 J- I

chtk~.

Notary Public

/J~

1

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expir2s
February 1'1, ?",23

